                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                         Middle East Regional Office
Office of Inspector General


                                    DynCorp Operations and Maintenance
                                        Support at Camp Falcon in
                                            Kabul, Afghanistan

                                           Report Number MERO/I-11-12, August 2011




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office ofinspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                UNCLASSIFIED




Acronyms and Abbreviations

AQM             Office of Acquisition Management
ICOR            in-country contracting officer’s representative
INL             Bureau of International Narcotics and Law Enforcement Affairs
Department      Department of State
DOD             Department of Defense
DynCorp         DynCorp International
FAH             Foreign Affairs Handbook
FAR             Federal Acquisition Regulation
MCTF            Major Crimes Task Force
MERO            Middle East Regional Office
OIG             Office of Inspector General
TOEFL           Test of English as a Foreign Language




                                UNCLASSIFIED
                                                               UNCLASSIFIED

                                                            Table of Contents

Section                                                                                                                                                Page

Key Findings ......................................................................................................................................... 1

Introduction           ....................................................................................................................................... 2

Executive Summary .............................................................................................................................. 3
       Results
       Recommendations
       Management Comments and OIG Response

Background ........................................................................................................................................... 5

DynCorp Performance .......................................................................................................................... 6

Oversight of Contractor Performance ................................................................................................. 7
       Food Service
       Fuel Operations
       Static Guard Force
       In-Country Contracting Officer’s Representatives

Trafficking in Persons ........................................................................................................................ 10

Appendices
      A. Purpose, Scope, and Methodology ................................................................................... 12
      B. Bureau of International Narcotics and Law Enforcement Affairs’
         Expenditures for DynCorp Operations and Maintenance Support
         for Camp Falcon, October 2009 – January 2011 ........................................................... 14
      C. Comments From Embassy Kabul ..................................................................................... 15
      D. Comments From the Bureau of Administration .............................................................. 18




                                                               UNCLASSIFIED
                                    UNCLASSIFIED


                                     Key Findings

•   From November 2009 through January 2010, the time period reviewed by the Office of
    Inspector General (OIG), the Bureau of International Narcotics and Law Enforcement
    Affairs (INL) overpaid DynCorp International (DynCorp) approximately $157,000 for
    meals at Camp Falcon. If the calculated costs for meals are extrapolated through April
    2011, INL could have been billed an additional $785,000.

•   DynCorp cannot verify that Camp Falcon is receiving the correct amount of diesel fuel
    for its electric generators or determine how much fuel is used at the camp. The contractor
    does not maintain records for the amount of fuel consumed.

•   DynCorp’s static guard force has been generally effective in ensuring the safety of
    personnel under chief of mission authority and Afghan personnel at Camp Falcon.
    However, guards do not have the English language proficiency required by the task order.
    In addition, guards have worked every day of 2-week pay periods without a break for
    many as 24 consecutive pay periods, which is not in compliance with the task order.

•   DynCorp has adequately operated and maintained Camp Falcon by providing sewage
    systems and waste water treatment, a potable water supply, electric power, and pest
    control. DynCorp also has adequate control over U.S. Government-furnished property.

•   INL’s two in-country contracting officer’s representatives (ICOR) have had difficulty
    fulfilling their contract oversight responsibilities, including maintenance of adequate
    contract files.

•   OIG found no evidence that DynCorp has engaged in trafficking in persons by recruiting
    or maintaining labor through the use of force, fraud, or coercion.




                                             1

                                    UNCLASSIFIED
                                          UNCLASSIFIED


                                            Introduction

        The Major Crimes Task Force (MCTF), located at Camp Falcon in Kabul, Afghanistan,
was established in the fall of 2009, as part of Afghan Government’s efforts to fight serious crime.
Through a task order under the INL civilian police training contract, DynCorp provides
operations and maintenance support for Camp Falcon. Between 2009 and 2010, the Department
of Defense (DOD), in support of the MCTF, authorized up to $12 million to fund DynCorp’s
task order for operations and maintenance support. Of this amount, DOD initially provided INL
with $6.2 million, and INL has been overseeing the contractor since the fall of 2009. INL is
expecting an additional $5.2 million from DOD to support Camp Falcon.

        The Middle East Regional Office (MERO) of OIG initiated this evaluation under the
authority of the Inspector General Act of 1978, as amended, because of concerns about the
Department of State’s (Department) oversight of contractor performance. Specifically, the
objectives of this evaluation were to determine: (1) the requirements and provisions of the
contract and task orders; (2) the amount of funding the Department has obligated and expended
to provide operations and maintenance support at Camp Falcon; (3) DynCorp’s contract
performance in providing facility operations and maintenance to the MCTF at Camp Falcon; (4)
DynCorp’s controls for inventorying, recording, and safeguarding U.S. Government-furnished
equipment and property at Camp Falcon, whether the equipment has been properly accounted
for, and the challenges to maintaining accountability; (5) how the Department ensures that costs
are properly allocated and supported; and (6) whether the Department contract includes Federal
Acquisition Regulation (FAR) clause 52.222-50, which provides administrative remedies if,
during the term of the contract, the contractor or subcontractor engages in severe forms of
trafficking in persons. This report is the third in a series of evaluations of Department oversight
and contractor performance of operations and maintenance support contracts in Afghanistan. 1

        In developing this evaluation, OIG met with Department officials from the Office of
Acquisition Management (AQM) and INL, and with DynCorp management and service
technicians. The OIG team reviewed contract and program documents, financial reporting data,
invoices, and quality assurance and maintenance service reporting documents in both
Washington, DC and Kabul. The team evaluated the quality of the services provided by DynCorp
to determine whether the contractor fulfilled contract requirements for electric power generation,
sanitation and sewage systems, pest control, and a static guard force. The team also inventoried
U.S. Government-furnished property. OIG conducted this performance evaluation in accordance
with the Quality Standards for Inspection and Evaluation issued in January 2011 by the Council
of the Inspectors General on Integrity and Efficiency.




1
  PAE Operations and Maintenance Support at Embassy Kabul, Afghanistan, Performance Evaluation, MERO-I-11-
05, December 2010 and Performance Evaluation of PAE Operations and Maintenance Support for the Bureau of
International Narcotics and Law Enforcement Affairs’ Counternarcotics Compounds in Afghanistan, MERO-I-11-
02, February 2011.

                                                    2

                                          UNCLASSIFIED
                                            UNCLASSIFIED


                                        Executive Summary

Results

        In general, DynCorp adequately operated and maintained Camp Falcon systems,
including water filtration and distribution, electric power generators, heating and cooling, and
sanitation and sewage treatment; and controlled pests (insects and rodents). The contractor also
appropriately controlled and inventoried U.S. Government-furnished property. However, OIG
found weaknesses in DynCorp’s invoicing for food service, fuel operations, and the static guard
force. In addition, ICOR contract files were incomplete.

        DynCorp submitted and INL approved DynCorp invoices that included overcharges for
meals provided by its subcontractor. Although DynCorp’s cost proposal to INL established a
daily rate of $6.75 per person for meals, the subcontractor charged DynCorp per meal, rather
than per person, and DynCorp, in turn, invoiced INL at the subcontractor’s per meal rate. When
OIG recalculated the meal costs at the rate in DynCorp’s cost proposal, the cost for 3 months
totaled $397,322; this total was $157,000 less than DynCorp had invoiced INL for those 3
months. If these overcharges are extrapolated from February 2010 to April 2011,2 INL could
have risked overpaying DynCorp an additional $785,000.

        DynCorp adequately provided diesel fuel to Camp Falcon. However, rather than using its
own meter, the contractor relied on the fuel vendor’s measurement of the amount of fuel pumped
into the fuel tanks, but it could not be determined whether the vendor’s meters are properly
calibrated. In addition, the fuel tanks do not have meters to measure the amount of fuel in the
tanks or its outflow to generators, so DynCorp cannot determine how much fuel is normally
consumed at the camp. DynCorp does not maintain records of the amount of fuel in the tanks or
the amount used by the generators. These issues increase the risk of wasting Department funds
and could potentially lead to fraud. Further, because there are no records or fuel tank gauges, the
generators could unexpectedly run out of fuel.

        The static guard force provided by DynCorp has ensured the safety of approximately
1,000 tenants of Camp Falcon. However, DynCorp has not verified the guards’ English language
proficiency, and guards are working without days off, neither of which complies with the task
order. INL has not confirmed that the guards, most of whom are Nepalese and all of whom are
third-country nationals, have met the required minimum score on the Test of English as a
Foreign Language (TOEFL). OIG could not find any TOEFL results in the guards’ files. The
guards’ inability to communicate in English could put security at risk in an emergency situation,
and guards may not be able to understand security materials written in English. Although guards
are supposed to work 6 days per week, OIG found DynCorp vouchers indicating guards were
paid for working 14 days in a row for as many as 24 consecutive pay periods. Without proper
rest, guards may not be able to adequately protect Camp Falcon.


2
 These dates were chosen because the DynCorp period of performance began in February 2010, and OIG’s
evaluation extended to April 2011.

                                                     3

                                            UNCLASSIFIED
                                       UNCLASSIFIED

        OIG found that two INL ICORs were responsible for approximately 14 programs
including the administration of Camp Falcon. Because they could not focus entirely on
operations and maintenance support at Camp Falcon, the ICORs had difficulty carrying out all
their responsibilities or did not fully understand the task order requirements. Further, OIG
determined that the ICOR contract files were incomplete. Having the required documentation in
the ICOR contract file would help incoming ICORs understand their responsibilities.

Recommendations

Recommendation 1: OIG recommends that the Bureau of Administration seek reimbursement
of $157,000 from DynCorp for Camp Falcon food service overcharges from November 2009
through January 2010. In addition, OIG recommends that the bureau review all invoices for food
service submitted between February 2010 and April 2011, and if overcharges are found, seek
reimbursement from DynCorp of the overcharged amount. (Action: Bureau of Administration)

Recommendation 2: OIG recommends that the Bureau of Administration ensure that future
DynCorp vouchers for meals served to Afghan nationals at Camp Falcon reflect costs based on a
daily meal rate rather than costs per meal. (Action: Bureau of Administration)

Recommendation 3: OIG recommends that the Bureau of International Narcotics and Law
Enforcement Affairs ensure adequate records are maintained of receipt, distribution, and usage of
diesel fuel for electric generators at Camp Falcon. (Action: INL)

Recommendation 4: OIG recommends that the Bureau of International Narcotics and Law
Enforcement Affairs ensure that operations and maintenance support contractors at Camp Falcon
only purchase diesel fuel from vendors with properly calibrated meters to measure fuel, or
alternatively, ensure that contractors are able to independently measure the amount of diesel fuel
provided. (Action: INL)

Recommendation 5: OIG recommends that the Bureau of International Narcotics and Law
Enforcement Affairs assess the English language proficiency levels of all guards in the static
force. Guards without the required level of proficiency should be removed, or alternatively
DynCorp should accept a payment reduction until it can prove guards have achieved the required
level of proficiency. (Action: INL)

Recommendation 6: OIG recommends that the Bureau of International Narcotics and Law
Enforcement Affairs ensure that DynCorp adheres to the static guard force work schedule
included in the task order requirements (that is, a 6-day work week). (Action: INL)

Management Comments and OIG Response

         Embassy Kabul and the Bureau of Administration provided formal comments on a draft
of this report, which are included verbatim in appendices C and D, respectively. INL and the
Special Representative for Afghanistan and Pakistan had no comments. The embassy agreed



                                                4

                                       UNCLASSIFIED
                                       UNCLASSIFIED

with all recommendations directed to INL. The Bureau of Administration agreed with the two
recommendations directed to it and noted that it will begin working with INL on compliance.


                                        Background

         To support the Afghan Government in its efforts to confront serious crimes, the
Department partnered with the international community to develop and train Afghan nationals by
establishing the MCTF in Kabul in the fall of 2009. Since that time, DOD has provided funding
for operations and maintenance support of Camp Falcon where the MCTF resides. The
contractor, DynCorp, provides this support through a task order under an INL civilian police
training contract. DynCorp supports approximately 1,000 tenants including U.S. and British
advisors, Afghan MCTF personnel, and transitioning Afghan national police who either live at or
visit the camp. Camp Falcon includes housing for Afghan MCTF staff and DynCorp personnel, a
dining facility, warehouse, gym, office space, an armory, classrooms, various utility facilities,
and guard posts and towers.

        DynCorp operates and maintains Camp Falcon 24 hours a day, by providing food service,
medical services, housing, recreation facilities, laundry facilities, electrical power, plumbing,
heating and cooling, water supply purification and distribution, sewage and waste water
distribution, and minor maintenance, as well as security, information technology support, and
communications. To date, INL has received $6.2 million from DOD for support of Camp Falcon,
and is awaiting receipt of an additional $5.2 million from DOD as reimbursement for continued
support of the camp.

        DynCorp invoiced INL $5.1 million for services rendered from October 2009 through
January 2011, including about $2.6 million in labor costs. Tables 1 and 2 in Appendix B show
the breakdown of expenditures for operations and maintenance support.

        In December 2010, DOD awarded a new contract to DynCorp to transition two INL
programs, Afghan Civilian Advisor Support and Embedded Police Training, to a new DOD
police training contract; the new contract with DynCorp does not include operations and
maintenance support for the MCTF at Camp Falcon. INL informed OIG that it is developing a
separate plan to continue operations and maintenance support for Camp Falcon.




                                                5

                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                  DynCorp Performance

        Overall, DynCorp provided adequate facilities support for Camp Falcon systems
including water filtration and distribution, electric power generators, heating and cooling, and
sanitation and sewage treatment; and controlled pests (insects and rodents). DynCorp also
appropriately inventoried and controlled U.S. Government-furnished property. Camp Falcon
depends on Camp Gibson for its potable water through a water distribution system that pumps
water to Camp Falcon. DynCorp has maintained this system to ensure the water supply to Camp
Falcon is not interrupted. In addition, DynCorp has consistently provided electricity through
regular maintenance schedules of two generators that produce electricity for the entire camp.
According to the DynCorp facilities coordinator, there have been no electrical outages at Camp
Falcon since 2006.

Figure 1: The photo on the left shows water storage tanks at Camp Falcon, and the photo
on the right shows a waste water removal tanker truck at Camp Falcon.




Source: OIG

        DynCorp has generally maintained effective control over U.S. Government-furnished
property and uses an inventory system to maintain property records. OIG inventoried equipment
that included vehicles, generators, boiler equipment, storage containers, physical fitness
equipment, computers and related accessories, communications equipment, and furniture. Other
inventoried items such as night vision goggles, weapons, and other defensive equipment, are
considered sensitive. DynCorp accounted for 100 percent of all sensitive items and all other
equipment except for one laptop computer.




                                               6

                                       UNCLASSIFIED
                                        UNCLASSIFIED


Figure 2: The photo on the left shows equipment stored in the Camp Falcon warehouse.
(b) (5)                                              (b) (5)


                                                     (b) (5)




          Source: OIG



                          Oversight of Contractor Performance
        OIG found weaknesses in INL’s oversight of DynCorp’s food service invoicing, fuel
operations, and the static guard force; and ICOR contract files were incomplete. DynCorp was
overpaid for meal costs which over the performance period could be estimated as approximately
8 percent of operations and maintenance expenditures. DynCorp cannot verify that the camp is
receiving the correct amount of diesel fuel for generators and does not measure or record the
amount of fuel consumed. Further, OIG determined that the guards are not properly tested to
ensure they have the required English language proficiency. Guards have also worked 7 days a
week instead of 6 days, which does not comply with the task order. Finally, INL ICORs have had
difficulty carrying out all their responsibilities, and contract files are not adequately maintained.

Food Service

        In its review of INL-approved DynCorp invoices for 3 months of food service, OIG
found that DynCorp was calculating meal costs differently than it had proposed under the task
order. These differing calculations resulted in overpayment by INL of $157,000 for meals from
November 2009 through January 2010. By extrapolating these calculations, OIG estimates that
INL may have risked overpaying an additional $785,000 through April 2011.

       DynCorp contracted with a company to provide meals to Afghan nationals at Camp
Falcon. DynCorp’s cost proposal established a cost reimbursable daily meal rate of $6.75 per
person. However, OIG’s review of the subcontractor’s meal invoices revealed that the
subcontractor charged DynCorp per meal, rather than per person. The DynCorp contracts
manager confirmed OIG’s determination that, although DynCorp proposed a daily meal cost of
$6.75 per person for an estimated 840 individuals, DynCorp invoiced INL at the subcontractor’s
per meal rate. The subcontractor calculated all meals during a billing period, divided the total
number in half (assuming not all 840 individuals ate three meals a day), and multiplied this
number by $6.75 per meal, charging DynCorp $554,266 for three months (November 2009 to
January 2010).


                                                 7

                                        UNCLASSIFIED
                                        UNCLASSIFIED

        OIG recalculated the meal costs by multiplying the highest number of meals served per
day, according to the subcontractor’s invoices, for breakfast, lunch, and dinner by $6.75. The
resulting cost, using a daily meal rate, totaled $397,332, an overcharge of $157,000 for this 3-
month period. If this billing period is representative of the monthly invoicing from February
2010 to April 2011, INL could have potentially overpaid DynCorp an additional $785,000, based
on an average payment of $52,333 per month.
Fuel Operations

         DynCorp adequately provided electric generator diesel fuel at Camp Falcon. However,
the contractor does not use a meter to measure the amount of fuel pumped into the fuel storage
tanks, but relies instead on the fuel vendor’s measurements. In addition, DynCorp cannot
determine the amount of diesel fuel normally consumed, since the fuel tanks do not have meters
to measure outflow. As a result, DynCorp does not maintain records of either the amount of fuel
in the tanks or the amount used by the generators. The lack of records and meters on the tanks, as
well as a lack of knowledge about the amount of fuel consumed, could potentially lead to fraud.

        DynCorp relies on observation of the vendor’s meter to measure and account for the
amount of fuel delivered to Camp Falcon. Three individuals monitor refueling of the tanks. A
fuel sample is taken and visually inspected to ensure there is no water or sediment in the fuel to
contaminate the diesel fuel tanks or generators. These individuals also ensure that fuel is pumped
only into the fuel storage tanks and that the vendor’s meter is not tampered with during the
process. Once refueling is complete, a DynCorp representative locks the tank, photographs the
vendor’s meter, signs a fuel voucher attesting to the amount of fuel delivered, and retains a copy
of the voucher for the records. Because it does not have its own fuel meter, DynCorp cannot
make its own measurement of fuel pumped into the tanks, but relies solely on its reading of the
fuel vendor’s meter, which may not be calibrated. An uncalibrated meter could be inaccurately
measuring the amount of fuel, increasing the risk of overpayment and possible waste of
Department funds. OIG found no calibration process used in Afghanistan, which DynCorp
confirmed. The contractor noted that it does not plan to change the current fuel delivery process.

         The diesel fuel storage tanks do not have gauges to measure how much fuel is in the
tanks or outflow meters to record the amount of fuel used by the generators, nor are any records
kept to track the amount of fuel used by the generators. Each week, DynCorp estimates the
amount of fuel to order. Not knowing the amount of stored fuel could put camp operations at
risk. If fuel did not arrive in a timely manner, there would be no way to determine the amount of
fuel in reserve or how long it would last. If the tanks ran out of fuel, the generators would shut
down, resulting in an electric power loss.

Static Guard Force

       DynCorp provides the static guard force at Camp Falcon and has ensured the safety of
approximately 1,000 tenants including Afghan nationals, Afghan MCTF mentors, U.S.
Government staff, DynCorp personnel, and visitors. OIG found the guard contingent to be a
professional force. Guards maintain proficiency through regular weapons qualification, as well


                                                8

                                        UNCLASSIFIED
                                           UNCLASSIFIED

as conduct of emergency readiness drills and training exercises. However, DynCorp is not
complying with the task order in two areas, English language proficiency and work schedules.

       The static guard force at Camp Falcon, which is mostly composed of individuals from
Nepal, has guarded the compound since November 2009. The guards work in the guard towers
and posts, perform roving relief duty, and conduct searches of vehicles and individuals at the
camp entry point and the control door.

Figure 3: The photo below shows a guard tower at Camp Falcon.




Source: OIG

        INL has not verified that the guards, all of whom are third-country nationals, meet the
contractually required minimum score of 400 on the TOEFL. The TOEFL is used to evaluate
non-native English speakers in English reading, writing, and listening proficiency. Although the
contract requires that the exam be administered to the guards prior to hiring, OIG could not
locate any TOEFL results in the guards’ permanent files maintained at DynCorp’s human
resources office at Camp Gibson. According to DynCorp human resources management at Camp
Gibson, the TOEFL was never administered to the guards. OIG did not receive a response from
DynCorp to its request for TOEFL scores for specific guards. Inadequate English language
comprehension could impact security during emergencies if, for example, guards were receiving
commands from English speakers such as DynCorp security personnel or the regional security
officer, rather than from Nepalese static guard force supervisors. Further, without written English
comprehension, the guards will be unable to understand security materials written in English.

         According to the task order requirements, to maintain alertness, the guards are to work
only a 12-hour shift and a 6-day work week. OIG determined that the guards were not receiving
appropriate numbers of days off. The rosters showed that guards were assigned to a day or night
shift, acting as escorts, at the firing range, or assigned to a quick reaction force 7 days a week
with no days off. A review of DynCorp vouchers indicated that the guards were paid for 14 days
straight per pay period for as many as 24 consecutive pay periods, unless they were on leave. In
2009, the regional security officer in Kabul stated that guards should not work more than 6 days
consecutively so as not to diminish their effectiveness and compromise security. 3 Without

3
 OIG interviewed Embassy Kabul regional security office staff members during its evaluation of the Baghdad
Embassy Security Force. See The Bureau of Diplomatic Security Baghdad Embassy Security Force, MERO-A-10-
05, March 2010.

                                                     9

                                           UNCLASSIFIED
                                             UNCLASSIFIED

sufficient rest, the guards for Camp Falcon may not be able to adequately protect the compound
against unauthorized, illegal, or potentially life-threatening actions directed toward personnel or
actions directed at sensitive information and property.

In-Country Contracting Officer’s Representatives

        INL’s oversight of DynCorp’s operations and maintenance of Camp Falcon was limited
because only two INL ICORs were responsible for approximately 14 programs including the
administration of Camp Falcon. 4 The two ICORs had difficulty fully carrying out their
responsibilities or completely understanding the task order requirements because they were
spread too thinly to focus entirely on a single program. The ICORs informed OIG that they spent
approximately 20 percent of their time on management and oversight of operations and
maintenance at Camp Falcon. The ICORs also reported that they did not review all vouchers. As
a result, invoices stemming from these vouchers were not properly reviewed and approved,
which likely resulted in INL’s overpayment for meals.
        OIG evaluated the ICORs’ contract files in Kabul and determined that the ICORs did not
maintain complete contract files. The electronic folder for the Afghan Civilian Advisor Support
program was in disarray and not organized. The ICOR file was missing required documentation
as outlined in the Foreign Affairs Handbook (FAH), 5 which would have aided the transition for
incoming ICORs. For example, the file contained only three quality assurance reports for the
camp and did not include any communications between the ICORs and the contractor. The file
for the Afghan Civilian Advisor Support task order, which is related to Camp Falcon operations
and maintenance support, was also disorganized, and it was difficult to discern which records
were current or relevant. OIG inquired as to whether the ICORs were using the new INL Web-
based system for ICORs to post their program files. 6 The ICORs indicated that they had not seen
the system and were putting their documentation on the Embassy Kabul server.


                                        Trafficking in Persons
         The FAR requires that clause 52.222-50, Combating Trafficking in Persons, be inserted
into all contracts. The DynCorp contract for Afghan National Police contains this clause as
required. The OIG team developed a questionnaire to determine if DynCorp was complying with
the terms of the clause. In structured interviews with 34 third-country national employees (from
the Philippines and Nepal) serving as guards and three other third-country nationals employed by
4
  OIG noted similar limits in oversight because of the lack of a sufficient number of ICORs and recommended
assigning an adequate number of ICORs in a joint DOD Inspector General/Department OIG report, DOD
Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the
Afghan National Police , D-2010-042/MERO-A-10-06, February 9, 2010 and in Performance Evaluation of PAE
Operations and Maintenance Support for the Bureau of International Narcotics and Law Enforcement Affairs’
Counternarcotics Compounds in Afghanistan, MERO-I-11-02, February 2011.
5
  14 FAH-2 H-517 Standard Contracting Officer’s Representative Working File.
6
  In a response to DOD Obligations and Expenditures of Funds Provided to the Department of State for the Training
and Mentoring of the Afghan National Police, D-2010-042/MERO-A-10-06, February 9, 2010, INL indicated it was
instituting a new ICOR filing system using SharePoint.

                                                       10

                                             UNCLASSIFIED
                                     UNCLASSIFIED

DynCorp, the OIG team found no evidence that DynCorp was recruiting or maintaining labor
through the use of force, fraud, or coercion.




                                            11

                                     UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                     Appendix A
                           Purpose, Scope, and Methodology

        MERO initiated this work under the authority of the Inspector General Act of 1978, as
amended, because of concerns about the Department’s exercise of control over the performance
of contractors. Overall, the objectives of this review were to determine: (1) the requirements and
provisions of the contract and task orders; (2) the amount of funding the Department has
obligated and expended to provide embassy facility operations and maintenance; (3) DynCorp’s
contract performance in providing facility operations and maintenance support at Camp Falcon;
(4) DynCorp’s controls for inventorying, recording, and safeguarding U.S. Government-
furnished equipment and property at Camp Falcon, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability; (5) how the Department ensures
that costs are properly allocated and supported; and (6) whether the Department contract includes
FAR clause 52.222-50, which provides administrative remedies if, during the term of the
contract, the contractor or subcontractor engages in severe forms of trafficking in persons.

        To determine the requirements and provisions of the contract, OIG analyzed DynCorp’s
basic contract and the Afghan Civilian Advisor Support task order and modifications that
included Camp Falcon operations and maintenance support. OIG also reviewed supporting
documents including the FAR, the Foreign Affairs Manual, and Department regulations.

    In examining whether contract performance measures were established, OIG reviewed the
contract provisions, interviewed the contracting officer (Washington, DC) and embassy staff
members, the contracting officer’s representative (Washington, DC) and the ICORs (Kabul,
Afghanistan). OIG focused on seven areas of contract performance: (1) invocation of the Prompt
Payment clause when applicable; (2) overall maintenance of all the utility systems; (3) accuracy
of fuel deliveries; (4) accuracy of meals provided; (5) accountability of U.S. Government-
furnished property; (6) ownership of the information system that is used to manage the U.S.
Government-furnished property; and (7) oversight of guards related to work hours and English
language proficiency. To determine whether contract performance measures were achieved,
OIG:

   •   Met with DynCorp personnel representing all positions supported by the contract;
   •   Reviewed DynCorp invoices; and
   •   Conducted a physical inventory of U.S. Government-furnished equipment, specifically all
       items valued at over $2,000 and all sensitive items.

    To examine the Department’s administration and oversight of the contract, OIG reviewed the
Department’s oversight mechanisms for coordination, invoice review, and purchasing of diesel
fuel and meals. OIG interviewed staff members from DynCorp in Fort Worth, Texas; and Kabul,
Afghanistan; AQM; and INL offices in Washington, DC; and in Kabul, Afghanistan. OIG also
reviewed program management documentation.




                                               12

                                       UNCLASSIFIED
                                        UNCLASSIFIED

     OIG reviewed the guard duty rosters, invoices, and communicated with the DynCorp’s
billing manager as to whether guards were only paid for time worked. The manager indicated the
guards are only paid for days they work unless on leave.

     To determine whether DynCorp effectively controlled rodents and insects on the compound,
OIG looked over the compound and found no rodent or insect infestations. OIG asked 34 guards
as to their sightings of rodents and insects around the camp, since they were constantly outside in
all areas of the compound. Unanimously, these guards indicated that they rarely or never saw any
rodents and during the summer months the subcontractor sprayed to control the insects.

    To establish if DynCorp accounted for U.S. Government-furnished property, OIG conducted
a physical inventory of 283 pieces of equipment valued at $2,000 or greater and sensitive items
valued at $2.02 million, which was 65 percent of the entire inventory value of $3.1 million. The
inventory was conducted inside buildings; outside various building locations; in the warehouse,
armory, and guard towers; and at Camp Alvarado. The entire MCTF inventory comprised 5,616
items.

    To ascertain whether the contract includes FAR clause 52.222-50, OIG examined the
contract and modifications. Additionally, OIG developed a questionnaire and interviewed 34
third-country national guards and three third-country national staff members to determine
whether DynCorp was complying with the clause. No issues were cited by staff interviewees.

    OIG conducted this performance evaluation from November 2010 to April 2011. OIG did not
use computer-processed data to perform this evaluation. OIG conducted this performance
evaluation in accordance with the Quality Standards for Inspection and Evaluation issued in
January 2011 by the Council of the Inspectors General on Integrity and Efficiency.

   This report was prepared under the direction of Richard “Nick” Arntson, Assistant Inspector
General for MERO. The following staff members conducted evaluation and/or contributed to the
report: Yvonne Athanasaw, Adriel Harari, Kelly Herberger, James Pollard, and Ray Reddy.




                                                13

                                        UNCLASSIFIED
                                                                   UNCLASSIFIED


                                                                                                                 Appendix B

      Bureau of International Narcotics and Law Enforcement Affairs’
  Expenditures for DynCorp Operations and Maintenance Support for Camp
                    Falcon, October 2009 – January 2011

Table 1: Labor Costs, October 2009 – January 2011

                                     No. of                             Type of Services              Labor
               Position             Positions      Nationality             Provided                   Total

Guards                                 47       Foreign National    Static Security                 $1,322,405
Logistics Supervisor                    1       United States       Logistics                          173,522
Medic                                   1       Foreign National    Life & Mission Support             163,353
Site Coordinator                        1       United States       Logistics                          145,668
Site Security Lead                      1       United States       Static Security                    138,274
Deputy Program Manager                  1       United States       Life & Mission Support             108,167
PS Member (Tier II) Assistant           1       Foreign National    Static Security                     98,264
Facilities Maintenance Specialist       1       Foreign National    Operations & Maintenance            92,187
Logistics Coordinator                   1       Foreign National    Logistics                           73,291
Lead Guard                              2       Foreign National    Static Security                     72,500
Interpreter                             5       Local National      Static Security (3) Admin (2)       63,573
Human Resources Specialist              1       Foreign National    Life & Mission Support              50,947
Grounds Worker                          4       Local National      Operations & Maintenance            34,828
Custodian                               6       Local National      Custodial                           31,545
Plumber/Handyman                        2       Local National      Operations & Maintenance             7,326
Electrician                             1       Local National      Operations & Maintenance            7,320
Carpenter                               1       Local National      Operations & Maintenance            6,960
Logistics Warehouse Assistant           1       Local National      Logistics                           6,255


TOTAL LABOR                                                                                         $2,596,385
    Source: OIG analysis of DynCorp data



Table 2: Other Direct Costs, October 2009 – January 2011

                     Categories                                    Total Invoiced
DFAC Meals                                                                                 $632,319
Diesel Fuel                                                                                 601,376
Waste Removal                                                                               207,120
Misc Supplies                                                                               186,353
Laundry                                                                                      85,513
Minor Facility Repairs                                                                       79,614
Generator Maintenance                                                                        57,793
Office Supplies                                                                              35,302
AC Maintenance                                                                               24,685
Employee Relations                                                                           16,861
Cleaning Supplies                                                                            14,415
Phone Cards                                                                                  11,569
Internet                                                                                     10,016
Pest Control                                                                                  9,987
Bottled Water                                                                                 6,868
ANP Life Support                                                                              2,280
Cable TV                                                                                        615
TOTAL OTHER DIRECT COSTS                                                                 $1,982,686
    Source: OIG analysis of DynCorp data




                                                                                14

                                                                   UNCLASSIFIED
                                          UNCLASSIFIED

                                                                                Appendix C

                              Comments from Embassy Kabul

                                               Embassy of the United States of America
                                                       Kabul, Afghanistan




UNCLASSIFIED                                                 July 12, 2011
MEMORANDUM

TO:            Assistant Inspector General Richard G. Arnston
FROM:          Ambassador Karl W. Eikenberry

SUBJECT:       Embassy Comments to OIG/MERO Final Audit Report, “Bureau of International
               Narcotics and Law Enforcement Affairs’ (INL’s) Major Crimes Task Force in
               Afghanistan” (MERO-I-11-12)


Embassy Kabul welcomes the opportunity to comment on this report. The Embassy strongly
believes in the importance of the effectiveness and proper execution of the DynCorp
International (DynCorp) task order to achieve maximum deliverables for the Major Crimes Task
Force (MCTF) Camp Falcon facilities.

The Embassy’s comments on the specific recommendations cited in the report are outlined
below. Because our offices in Washington will be providing additional comments, please
consider our submission as solely reflecting the Embassy’s views as a supplement to the official
response from INL Washington.

Recommendation 3:
“OIG recommends that INL ensure adequate records are maintained of receipt, distribution, and
usage of diesel fuel for electric generators at Camp Falcon.”

      •   The Embassy INL section agrees with this recommendation. When a diesel fuel vendor
          arrives with a delivery, the driver presents a test certification slip to DynCorp. The
          driver receives the test certification slip at the fuel distribution center. This certification
          slip addresses several aspects of quality of fuel dispensed, including chemical make-up
          and cetane ratings. This fuel quality report is a contractual deliverable between
          DynCorp and the fuel vendor. Fuel reports are maintained on site in the Finance
          Department until the end of the contract, at which time they are sent to DynCorp, Fort
          Worth, Texas to be archived.


                                                   15

                                          UNCLASSIFIED
                                       UNCLASSIFIED


     •   Subsequent to the OIG visit, INL requested DynCorp to purchase two intake and two
         discharge meters to verify the quality and amount of fuel being used. These meters,
         which were received on May 3, 2011, have not been installed by DynCorp. DynCorp
         submitted a Purchase Request (PR) on July 11, 2011 for electrical materials to install
         the meters. They are scheduled to be installed as soon as the materials arrive. INL has
         established procedures for DynCorp to verify the quantity and amount of fuel being
         used. DynCorp will be required to follow this guidance by using the meter to
         determine the quality of fuel while on the truck, an intake flow meter to determine the
         quantity of fuel as it is being drawn from the truck into the holding tank, and a
         discharge meter to measure the amount of fuel being used by generator. Fuel quality
         and usage records are maintained on site in the Finance Department until the end of the
         contract, at which time they are sent to DynCorp, Fort Worth, Texas to be archived. In-
         Country Contracting Officer’s Representatives (ICORs) will include the quarterly
         review of these reports in the Quality Assurance Surveillance Plan (QASP).

Recommendation 4:
“OIG recommends that INL ensure that operations and maintenance support contractors at Camp
Falcon only purchase diesel fuel from vendors with properly calibrated meters to measure fuel,
or alternatively, ensure that contractors are able to independently measure the amount of diesel
fuel provided.”

     •   The Embassy INL section agrees with this recommendation. The fuel delivery trucks
         are equipped with calibrated gauges. DynCorp personnel are present to observe the
         entire transfer of fuel from truck to tank to document the process and verify receipt of
         the amount of fuel being delivered. The records are maintained on site in the Finance
         Department until the end of the contract, at which time they are sent to DynCorp, Fort
         Worth, Texas to be archived. In-Country Contracting Officer’s Representatives
         (ICORs) will include the quarterly review of these reports in the Quality Assurance
         Surveillance Plan (QASP).

Recommendation 5:
“OIG recommends that INL assess the English language proficiency levels of all guards in the
static force. Guards without the required level of proficiency should be removed, or alternatively
DynCorp should accept a payment reduction until it can prove guards have achieved the required
level of proficiency.”

     •   The Embassy INL section agrees with this recommendation. The Afghanistan Civilian
         Advisor Support (ACAS) Statement of Work (SOW) specifies: “Those U.S. citizens
         who are not native English speakers and all other employees (Third Country Nationals
         and Host Country National) shall be tested to ensure a minimum score of 400 on the
         paper based Test of English as a Foreign Language (TOEFL). The scoring results shall
         be maintained as part of the employee’s permanent personnel file.” The English
         proficiency test is administered by DynCorp recruiters, and DynCorp personnel files
         maintained locally do not include the language test results. INL Kabul has requested
         that INL/RM/AIJS in Washington obtain a proficiency status report from DynCorp for

                                               16

                                       UNCLASSIFIED
                                      UNCLASSIFIED

         all Kabul-based static guards. ICORs will review the reports for compliance, and
         notify INL/RM/AIJS of the discrepancies for further action.

Recommendation 6:
“OIG recommends that INL ensure that DynCorp adheres to the static guard force work schedule
included in the task order requirements (that is, a 6-day work week).”

     •   The Embassy INL section agrees with this recommendation. INL does not approve of
         any person working seven days per week. Reportedly, static personnel continue to
         work seven days a week on 12-hour shifts, 313 days per year with 52 days of leave
         without pay. INL Kabul has requested INL/RM/AIJS in Washington to direct DynCorp
         compliance with static guard work force schedule. ICORs will review timesheets
         monthly.




                                              17

                                      UNCLASSIFIED
                                       UNCLASSIFIED

                                                                                  Appendix D

                   Comments from the Bureau of Administration



                                           United States Department of State

                                                    Washington, D.C. 20520

                                                          AUGUST 1, 2011

MEMORANDUM


TO: OIG/MERO - Richard Arntson

FROM: A/LM/AQM - Cathy J. Read

SUBJECT: DynCorp Operations and Maintenance Support at Camp Falcon in
Kabul, Afghanistan - Final Draft of OIG Review of INL's Major Crimes Task Force in
Afghanistan, (MERO-I-11-12, 2011)

REF: OIG E-mail dated 6/28/11 to A/LM/AQM from Richard Arntson


Please find below the Bureau of Administration's response to the subject report regarding
recommendations 1 and 2.

Recommendation 1: OIG recommends that the Bureau of Administration seek reimbursement
of $157,000 from DynCorp for Camp Falcon food service overcharges from November 2009
through January 2010. In addition, OIG recommends that the bureau review all invoices for food
service submitted between February 2010 and April 2011, and if overcharges are found, seek
reimbursement from DynCorp of the overcharged amount. (Action: Bureau of Administration)

A/LM Response: A/LM/AQM will coordinate with INL to ensure food service charges are
reviewed for overcharges. Since INL has been delegated payment approval authority through the
COR delegation memo, AQM will seek reimbursement after receiving INL's recommendations.

Recommendation 2: OIG recommends that the Bureau of Administration ensure that future
DynCorp vouchers for meals served to Afghan nationals at Camp Falcon reflect costs.

A/LM Response: INL established the methods for tracking meal consumption and reviews all
the invoices/vouchers for the number of meals served before they approve payment of the

                                               18

                                       UNCLASSIFIED
                                     UNCLASSIFIED

invoices. Therefore, A/LM/AQM will coordinate with INL to ensure that meals are being billed
and paid in accordance with the contract terms and conditions.

Drafted: A/LM/AQM/WWD/INL – (b) (6)
8/1/11

                            -
Cleared: A/LM/AQM/WWD: (b) (6)      - ok




                                             19

                                     UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
